January 25, 2002

MEMORANDUM FOR:               JOHN HENSHAW
                              Assistant Secretary for
                               Occupational Safety and Health Administration



FROM:                         JOHN J. GETEK
                              Assistant Inspector General
                               for Audit

SUBJECT:                      NORTH CAROLINA COUNCIL FOR OCCUPATIONAL
                              SAFETY AND HEALTH
                              Final Report No. 21-02-001-10-101

Attached is a report on the results of our audit of the costs claimed by the North Carolina Council
on Occupational Safety and Health (NCOSH), under its Grant (No. 46D0-HT01) with the
Department of Labor’s (DOL) Occupational Safety and Health Administration (OSHA), for the
period September 30, 2000 through September 30, 2001.

We are pleased to report that we accepted all of the claimed costs. We are providing a copy of
our report to NCOSH and no response is necessary.

If your staff has any questions concerning this audit, please contact Joseph Ganci, Director of the
Washington Audit Office on (202) 693-5179.

Attachment
cc:   OSHA

      Bob Poogach
      Deputy Director of Administration

      Paula White
      Director, Federal and State Operations

      Arlene Williams
      Grant Officer

      North Carolina Council for Occupational Safety and Health, Inc.

      Tom O’Connor
      Executive Director
 Office of Inspector General

U.S. Department of Labor
Washington Audit Office




                       NORTH CAROLINA COUNCIL FOR
                     OCCUPATIONAL SAFETY AND HEALTH




                 AUDIT OF COSTS CLAIMED UNDER
             OCCUPATIONAL SAFETY AND HEALTH GRANTS
                            AWARDED BY
                  THE U.S. DEPARTMENT OF LABOR
                       GRANT NO. 46D0-HT01

                            FOR THE PERIOD
              SEPTEMBER 30, 2000 THROUGH SEPTEMBER 30, 2001




                                       Audit Report No. 21-02-001-10-101

                                       Date Issued:
                                            TABLE OF CONTENTS


                                                                                                                      Page


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
    1


ASSISTANT INSPECTOR GENERAL’S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
     2


EXHIBIT A             SCHEDULE OF COSTS REPORTED FOR THE PERIOD
                      SEPTEMBER 30, 2000 THROUGH SEPTEMBER 30, 2001 . .. . . . . . 4


SCHEDULE 1 SCHEDULE OF PROPOSED AND AUDIT RECOMMENDED
           COSTS AS REPORTED ON THE GENERAL LEDGER . . . . . . . . . .5
                                         BACKGROUND


NCOSH is a nonprofit organization that was founded in 1976 with a mission of improving
workplace health and safety conditions in North Carolina. NCOSH is part of a National COSH
Network that is made up of 18 local coalitions of workers, unions, community organizations, and
health and technical professionals whose goal is to help improve workplace health and safety.

The national network selected NCOSH to administer and coordinate the work performed under
the grant, and it carries out this mission through a program of training, public education, technical
assistance, and advocacy. The target audiences are the vulnerable worker groups who are often
exposed to serious hazards and have limited skills and knowledge to enable them to protect their
health and safety. These groups are made up of youth, immigrants, and contingent, low literacy
and low income workers.

The overall goals of the project of aiding the vulnerable workers are to:

       S Build on the COSH groups ability to provide training and technical assistance.
       S Develop organizations that directly represent vulnerable workers to train and educate
         their constituents about workplace hazards.
       S Increase the utilization of COSH and OSHA health and safety resources.
       S Aid in the formation of new Occupational Safety and Health committees to serve the
         health and safety needs of vulnerable workers.

OSHA awarded this Susan Harwood Training grant to NCOSH to enhance workers’ knowledge
of and ability to use their rights under the Occupational Health and Safety Act, and to develop and
strengthen relationships with organizations in 13 states that aid vulnerable workers.

The grant was awarded for the period September 30, 2000 through September 30, 2001, in the
amount of $726,000. In addition, NCOSH was required to provide $83,105 of in-kind services
for a total project budget of $809,105. NCOSH actually contributed $126,291 of in-kind
services.

We audited the costs claimed for reimbursement for the period September 30, 2000 through
September 30, 2001. We found that the costs claimed were properly supported and that NCOSH
complied, in all material respects, with the cost principles set forth in OMB Circular A-122 and
the terms and conditions of the grant.




                                                 -1-
U.S. Department of Labor                       Office of Inspector General
                                               Washington, D.C. 20210




Mr. John Henshaw
Assistant Secretary for
 Occupational Safety and Health Administration
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210


                      ASSISTANT INSPECTOR GENERAL’S REPORT



We audited the costs claimed by the North Carolina Council for Occupational Safety and Health
(NCOSH) in Financial Status Reports submitted to the U.S. Department of Labor (DOL) under
its Occupational Safety and Health Grant for the period September 30, 2000 through
September 30, 2001 (Exhibit A). The costs claimed in the Financial Status Report are the
responsibility of NCOSH management. Our responsibility is to express an opinion on the accuracy
of the schedule of costs claimed based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and the
standards applicable to financial audits contained in the Government Auditing Standards issued by
the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the schedule of costs claimed is free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the schedule. An audit also includes assessing the accounting
principles used and the significant estimates made by management, as well as evaluating the
overall schedule presentation. The financial presentation for the costs charged to the DOL grant
for 2001 is included as Exhibit A. We believe that our audit provides a reasonable basis for our
opinion.

The schedule of costs claimed was prepared in conformity with the accounting practices
prescribed or permitted by the cost reimbursement principles of OMB Circular A-122 for
determining costs claimed under the applicable grants, which is a comprehensive basis of
accounting other than generally accepted accounting principles.

In our opinion, the schedule of costs claimed referred to above presents fairly, in all material
respects, the allowable incurred costs for the DOL grant awarded to NCOSH.



                                                 -2-
Compliance

As part of obtaining reasonable assurance about whether NCOSH’s schedule of costs claimed is
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, and grants, noncompliance with which could have a direct and material effect
on the determination of amounts claimed. However, providing an opinion on compliance with
those provisions was not an objective of our audit and, accordingly, we do not express such an
opinion. The results of our tests disclosed no instances of noncompliance that are required to be
reported under the Government Auditing Standards.

Internal Control

In planning and performing our audit, we considered NCOSH’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion
on the schedule of costs claimed and not to provide assurance on the internal control over
financial reporting. Our consideration of the internal control over financial reporting would not
necessarily disclose all matters in the internal control over financial reporting that might be a
material weakness. A material weakness is a condition in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions. We noted no matters involving the internal control over
financial reporting and its operation that we consider to be a material weakness.

                                 -    -   -   -    -    -   -   -   -

This report is intended solely for the information and use of the management of the DOL and
NCOSH and is not intended to be and should not be used by anyone other than these specified
parties. This restriction, however, is not intended to limit the distribution of this report which,
when issued, becomes a matter of public record.




JOHN J. GETEK
Assistant Inspector General
 for Audit
October 18, 2001




                                                  -3-
                                                                 EXHIBIT A




NORTH CAROLINA COUNCIL FOR OCCUPATIONAL
         SAFETY AND HEALTH, INC.

         Schedule of Costs Reported for the Period
      September 30, 2000 through September 30, 2001



                                         Cost
                                     Claimed
                                    on SF269
          Federal Share             $528,554     1/

          Recipient Share             126,291

          Total Net Outlays         $654,845



1/ - Schedule 1 itemizes the Federal expenses by Cost Element.




                              -4-
                                                      SCHEDULE 1




NORTH CAROLINA COUNCIL FOR OCCUPATIONAL
         SAFETY AND HEALTH, INC.

   Schedule of Proposed and Audit Recommended Costs
           As Reported on the General Ledger
    September 30, 2000 Through September 30, 2001



                      Costs Claimed          Costs
  Cost Element          by NCOSH          Accepted
                                        by Auditors
  Personnel Program         $80,760         $80,760

  Fringe Benefits              14,457        14,457
  Travel                       21,417        21,417

  Equipment                     1,694         1,694

  Supplies                      4,226         4,226

  Contractual               377,536         377,536

  Other Direct Cost            28,464        28,464

           Total           $528,554        $528,554




                         -5-
